September 28, 2001

PATRICK R. DONAHOE
CHIEF OPERATING OFFICER
 AND EXECUTIVE VICE PRESIDENT

SUBJECT:	 Audit Report – Transition Planning for the Priority Mail Processing Center
          Network (Report Number MK-AR-01-003)

This report presents the results of our audit of the Priority Mail Processing Center
Network transition planning conducted at the request of the Board of Governors (Project
Number 00NA016MK000). The original audit objectives were to review the planning
process for network transition and to assess the operational impact of the transition.
During the course of the audit, we refined the objectives to determine whether planning
was adequate to successfully transition network operations from the contractor to the
Postal Service, and assess the reasonableness of projected savings.

The audit revealed transition planning for the Priority Mail Processing Center Network
was generally adequate. However, opportunities to improve the transition planning
process were identified in the areas of facilities, processing equipment, staffing,
transportation, and cost reporting. Recommendations were provided to Postal Service
officials during the course of the audit. Postal Service management generally agreed
with our recommendations and took corrective actions during the audit.

This report does not contain recommendations and management was given the
opportunity to comment but no comments were received. We appreciate the
cooperation and courtesies provided by your staff during the review. If you have any
questions or need additional information, please contact Larry Chisley, director, at (703)
248-2100, or me at (703) 248-2300.



Robert L. Emmons
Assistant Inspector General
 for eBusiness

Attachment

cc: John R. Gunnels
Transition of the Priority Mail                                          MK-AR-01-003
 Processing Center Network


                                  TABLE OF CONTENTS


Executive Summary                                                            i

Part I


Introduction                                                                 1


   Background                                                                1

   Objectives, Scope, and Methodology                                        1

   Prior Audit Coverage                                                      2


Part II


Audit Results                                                                4


   Transition Planning was Generally Adequate                                4

     Plans for Leased Facilities Adequate but Environmental                  4

       Screening Not Performed

     Processing Equipment Plans Adequate but Not Tested                      5

     Staffing Plans Complete but Security Screening Inadequate               5

     Transportation Adequate but Insufficient Capacity at Airport Mail       6

      Centers

   Projected Savings were Overstated                                         8





                                     Restricted Information
Transition of the Priority Mail                                                      MK-AR-01-003
 Processing Center Network


                                    EXECUTIVE SUMMARY
 Introduction                     In response to a request from the Board of Governors, the
                                  Office of Inspector General (OIG) initiated an audit of the
                                  Priority Mail Processing Center Network transition planning.
                                  We conducted the audit to determine if the planning process
                                  ensured the network transition protected the interests of the
                                  Postal Service. In addition, we evaluated the potential
                                  impact of the transition plan on Postal Service operations.
                                  During the course of the audit, we refined the objectives to
                                  determine whether planning was adequate to successfully
                                  transition network operations from the contractor to the
                                  Postal Service, and assess the reasonableness of projected
                                  savings.

                                  In addressing our first objective we focused on facilities,
                                  processing equipment, staffing, and transportation plans. In
                                  the second objective, the impact of the plan was determined
                                  by the adequacy of management's planning and the cost of
                                  the transition.

 Results in Brief	                Transition planning for the Priority Mail Processing Center
                                  Network was generally adequate. Plans for leased facilities,
                                  processing equipment, proposed staffing, and transportation
                                  were generally sufficient to continue operations. However,
                                  we noted the following improvements were needed in
                                  transition planning and provided our recommendations to
                                  the Postal Service:

                                     •	 Environmental transaction screenings for leased
                                        commercial real estate had not been performed,
                                        placing Postal Service employees in potentially
                                        unsafe working conditions carrying legal, financial,
                                        and operational consequences.

                                     •	 The Postal Service’s test evaluation and quality staff
                                        was not included in plans for testing the integration of
                                        equipment used by the Postal Service and the
                                        contractor to manifest Priority Mail to the airlines, a
                                        potential for service disruption existed if the
                                        contractor’s equipment did not effectively interface
                                        with Postal Service systems.

                                     •	 Security screenings performed by the contractor
                                        were not adequate. A postal Inspection Service audit



                                                     i
                                          Restricted Information
Transition of the Priority Mail                                                       MK-AR-01-003
 Processing Center Network


                                        report issued in October 1999, determined the
                                        contractor’s preemployment screenings did not meet
                                        contract requirements, causing a potential security
                                        risk to Postal Service operations.

                                     •	 Existing resources at airport mail centers were
                                        potentially inadequate to effectively process Priority
                                        Mail Processing Center Network mail along with the
                                        existing mail volume.

                                  Postal Service management generally agreed with our
                                  recommendations and took corrective actions during the
                                  audit.

                                     •	 Environmental transaction screenings for the leased
                                        commercial real estate were performed.

                                     •	 The Postal Service’s test evaluation and quality staff
                                        was included in testing the integration of equipment
                                        used to manifest Priority Mail to the airlines.

                                     •	 Postal Service management modified the security
                                        screening process to ensure the problems identified in
                                        the Inspection Service's report were corrected.

                                     •	 The Postal Service agreed and indicated that the
                                        Priority Mail would be tendered directly to the airlines.

                                  Our audit also disclosed that projected savings were not
                                  adequately disclosed. The inclusion of anticipated
                                  contractor payments, as savings in the draft Decision
                                  Analysis Report did not clearly state the cost of assuming
                                  network operations to the Postal Service. Postal Service
                                  management agreed and added narrative information to
                                  clarify the inclusion of contractor payments in the Decision
                                  Analysis Report.




                                                     ii
                                          Restricted Information
Transition of the Priority Mail                                                       MK-AR-01-003
 Processing Center Network


                                         INTRODUCTION
 Background                       In March 1996, the Board of Governors approved a pilot
                                  project for the implementation of a network of ten Priority
                                  Mail Processing Centers. Under the terms of the contract,
                                  the contractor was responsible for providing a time definite
                                  2 day Priority Mail Processing Center Network within the
                                  Northeastern and Southeastern portions of the United
                                  States. The contractor began network operations in
                                  August 1997, with the opening of the first Priority Mail
                                  Processing Center in Miami, Florida.

                                  Differences arose between the contractor and the Postal
                                  Service over compensation under the contract. The
                                  contractor’s proposed rate was 40 percent higher than the
                                  Postal Service’s estimate, potentially impacting the Priority
                                  Mail rate structure. Differences continued despite
                                  numerous attempts to negotiate adjustments in contract
                                  prices.

                                  As a result, management believed an early end to the
                                  contract would limit the Postal Service’s financial exposure
                                  and decided to negotiate a termination agreement to end
                                  the contact. The Board of Governors subsequently
                                  approved the settlement and contract termination costs.
                                  The negotiated termination agreement was reached on
                                  November 3, 2000. Costs related to the termination of the
                                  existing contract and provisions covering the Postal
                                  Service’s assumption of portions of the Priority Mail
                                  Processing Center Network infrastructure were defined in
                                  the agreement.

 Objectives, Scope,
              The original audit objectives were to (1) determine if the
 and Methodology
                 planning process protected the interest of the Postal
                                  Service, and (2) evaluate the potential impact of the
                                  transition plan on Postal Service operations. During the
                                  course of the audit, we refined them to (1) determine
                                  whether planning was adequate to successfully transition
                                  network operations from the contractor to the Postal
                                  Service, and (2) assess the reasonableness of projected
                                  savings. In addressing the first objective, we focused on
                                  management's plans for facilities, equipment, staffing, and
                                  transportation. To address the second objective, we




                                                     1
                                          Restricted Information
Transition of the Priority Mail                                                     MK-AR-01-003
 Processing Center Network



                                  evaluated the impact of the plan by determining the
                                  adequacy of management's planning and the cost of the
                                  transition.

                                  We reviewed numerous internal documents and reports
                                  relating to the Priority Mail Processing Center Network. We
                                  interviewed Postal Service officials at headquarters, area
                                  offices, and each of the ten Priority Mail Processing Center
                                  locations. In addition, we reviewed the Priority Mail
                                  Processing Center Network – Transition from Contractor to
                                  Postal Service Decision Analysis Report and its supporting
                                  documentation.

                                  The audit was conducted from September 2000 through
                                  September 2001 in accordance with generally accepted
                                  government auditing standards and included such tests of
                                  internal controls, as were considered necessary under the
                                  circumstances. We discussed our conclusions and
                                  observations with appropriate management officials and
                                  included their comments, where appropriate.

 Prior Audit Coverage	            In our September 1999, Office of Inspector General report,
                                  Priority Mail Processing Center Network, (Report Number
                                  DA-AR-99-001), we concluded that Priority Mail processed
                                  through the network cost 23 percent more than Priority Mail
                                  processed by the Postal Service without a network and that
                                  the Priority Mail Processing Center Network was not
                                  meeting overall delivery rate goals. We also found that
                                  neither network personnel nor the contractor were
                                  responding in a timely and substantive manner to repetitive
                                  operational problems. In addition, there were opportunities
                                  to reduce network cost for commercial air transportation and
                                  fuel procurement.

                                  Management generally agreed with our recommendations.
                                  However, management pointed out that differences of
                                  opinion remain on some of the findings in the report. In
                                  addition, officials pointed out that the Priority Mail
                                  Processing Center Network was audited during its pilot




                                                     2
                                          Restricted Information
Transition of the Priority Mail                                                     MK-AR-01-003
 Processing Center Network



                                  phase, and that many of the findings and recommendations
                                  in the report may be premature.

                                  In October 1999, the Postal Inspection Service completed a
                                  personnel security review of the Priority Mail Processing
                                  Center Networks, (Case Number 952-1291970-PS(1)). The
                                  review found problems with the scope of background
                                  checks and that prior employment checks were not always
                                  done. The Postal Inspection Service believed the
                                  contracting officer would work with the contractor to resolve
                                  the identified problems.




                                                     3
                                          Restricted Information
Transition of the Priority Mail                                                                             MK-AR-01-003
 Processing Center Network


                                               AUDIT RESULTS
    Transition Planning              We concluded transition planning for leased facilities,
    was Generally                    processing equipment, staffing, and transportation was
    Adequate                         generally adequate. However, we identified several
                                     improvements that were needed, which have subsequently
                                     been addressed by Postal Service management.

    Plans for Leased                 The Postal Service planned to assume leases for the
    Facilities Adequate but          ten facilities used by the contractor.1 Our review indicated
    Environmental                    the facilities generally provided adequate space to meet the
    Screening Not                    current needs of the transition. Area personnel had
    Performed                        considered the incorporation of complementary workflow
                                     and the introduction of additional mail processing equipment
                                     in some facilities. In addition, Postal Service officials
                                     considered the relocation of some facilities due to location,
                                     cost, or volume considerations. Planning in this area was
                                     generally adequate.

                                     However, there was an opportunity to protect the interest of
                                     the Postal Service through the completion of facility
                                     environmental assessments. We determined that required
                                     environmental transaction screening for leased commercial
                                     real estate had not been performed. An environmental
                                     screening is designed to assess environmental conditions
                                     associated with a property. Failure to perform these
                                     screenings could potentially place Postal Service
                                     employees in unsafe working conditions and could have
                                     legal, financial, and operational consequences.

                                     Facilities Environmental Guide Handbook RE-6 and
                                     National Environmental Policy Act Operational Guidance
                                     Management Instruction AS-550-96-4 provides policy and
                                     guidance for facilities-related activities. They include
                                     guidance for environmental screenings and provide an
                                     environmental checklist that must be completed for the
                                     “creation, relocation or increase of 100 or more employees
                                     at any one Postal Service facility.” In addition, the guidance
                                     suggests certain headquarters actions, such as the
                                     “implementation of a new network of mail processing or
                                     sorting centers” may require an environmental assessment.


1
 The Priority Mail Processing Centers are located in Bethpage, New York; Jacksonville, Florida; Kearny, New Jersey; Miami,
Florida; Nashua, New Hampshire; Orlando, Florida; Rochester, New York; Springfield, Massachusetts; Swedesboro, New Jersey;
and Warrendale, Pennsylvania.




                                                            4
                                                 Restricted Information
Transition of the Priority Mail                                                       MK-AR-01-003
 Processing Center Network


                                  During the audit, the environmental screening process had
                                  not been completed. We recommended that Facilities
                                  personnel ensure the Postal Service complete the required
                                  environmental transaction screening for each leased facility
                                  before assuming control. Management agreed and
                                  conducted environmental transaction screenings before
                                  assuming control of the facilities.

 Processing Equipment             Transition plans included the retention of sortation
 Plans Adequate but               equipment, the installation of new equipment, equipment
 Not Tested                       maintenance, and the development of contingency plans.
                                  Plans also included integration testing of the contractor’s
                                  Commercial Air Routing and Tagging System and Postal
                                  Service equipment used to manifest mail to commercial
                                  airlines.

                                  However, equipment integration test plans did not include
                                  participation by the Postal Service’s Test Evaluation and
                                  Quality staff that manages testing and evaluation for the
                                  Postal Service. A key component of their mission is
                                  equipment testing and failure analysis. The Test Evaluation
                                  and Quality staff were not included because the transition
                                  team intended to conduct and evaluate the integration test.

                                  We recommended that the Test Evaluation and Quality
                                  group be assigned the responsibility for testing and
                                  evaluation of the integration of the contractor’s Commercial
                                  Air Routing and Tagging System. Postal Service
                                  management agreed and the Test Evaluation and Quality
                                  group was included in the integration testing.

 Staffing Plans                   Staffing plans for the network transition were generally
 Complete but Security            adequate. The transition team sought input and
 Screening Inadequate             concurrence from each of the Postal Service areas and
                                  functional experts within Postal Service Headquarters to
                                  ensure that staffing levels at the Priority Mail Processing
                                  Centers were sufficient and did not adversely impact the
                                  transition.

                                  Staffing plans also included cost data associated with the
                                  hiring and training of contractor employees and the placing
                                  of Postal Service Human Resources staff members at each
                                  processing center to assist in employee transition.




                                                     5
                                          Restricted Information
Transition of the Priority Mail                                                       MK-AR-01-003
 Processing Center Network



                                  However, staffing plans relied on personnel security
                                  screenings performed by the contractor and the successful
                                  recruitment of contractor employees. Contractor security
                                  screenings would be used during the hiring process in lieu
                                  of the Postal Service conducting new background
                                  investigations. The Postal Inspection Service’s
                                  October 1999 audit report disclosed that the contractor’s
                                  preemployment screenings of applicants did not meet
                                  contract requirements. The contractor’s security screening
                                  problems included problems with the scope of criminal
                                  checks, incomplete reviews of criminal information, missing
                                  employee files, incomplete documentation, and screenings
                                  required for rehires. Therefore, the Postal Service could not
                                  rely on security screenings by the contractor to determine
                                  whether an applicant posed a potential security risk to
                                  Postal Service operations.

                                  We recommended that Human Resources take the
                                  necessary action to ensure the security screening problems
                                  identified in the Inspection Service's report were corrected.
                                  Postal Service management agreed and modified the
                                  screening process during the course of the audit.

 Transportation                   Transportation planning for the Priority Mail Processing
 Adequate but                     Center Network was generally adequate. The transition
 Insufficient Capacity at         team generally sought to duplicate the contractor’s existing
 Airport Mail Centers             transportation network in an attempt to avoid service delays
                                  and minimize the impact on the Postal Service. In addition,
                                  the Postal Service identified costs for air and surface
                                  transportation.

                                  The audit also determined the tendering of Priority Mail
                                  Processing Center Network mail for commercial air
                                  transportation through Postal Service airport mail centers
                                  could impact delivery service. Mail volume estimates
                                  prepared by the Postal Service showed that mail volume
                                  from the Priority Mail Processing Center Network exceeded
                                  216 million pounds in fiscal year 2000. As a result, airport
                                  mail centers might not have the space necessary to service
                                  this volume along with existing workload. Postal Service
                                  officials at the headquarters, area, and local levels agreed
                                  Postal Service airport mail centers were potentially space
                                  deficient.




                                                     6
                                          Restricted Information
Transition of the Priority Mail                                                     MK-AR-01-003
 Processing Center Network


                                  In the past, the contractor tendered mail from the Priority
                                  Mail Processing Center Network directly to commercial
                                  airline freight houses for transportation. As a result, we
                                  recommended the senior vice president, Operations, should
                                  ensure Postal Service Headquarters Transportation,
                                  coordinates with the impacted national areas to resolve the
                                  direct tendering of Priority Mail from network operations to
                                  commercial airlines. Postal Service management agreed
                                  and indicated that headquarters and area personnel would
                                  work with the airlines to have network mail sent directly to
                                  the airlines.




                                                     7
                                          Restricted Information
Transition of the Priority Mail                                                      MK-AR-01-003
 Processing Center Network



 Projected Savings                The draft Decision Analysis Report for the network transition
 were Overstated                  contained a cash flow statement that included an estimate
                                  for investment costs and operating variances. The cash
                                  flow presented anticipated contractor payments in the
                                  operating variances portion of the Decision Analysis Report
                                  as program related savings.

                                  Although the anticipated contractor costs are included in the
                                  Decision Analysis Report cash flow, the Postal Service will
                                  not truly realize payment savings from the network transition
                                  because the Postal Service assumes the cost of operating
                                  the entire network.

                                  The inclusion of anticipated contractor payments as savings
                                  in the draft Decision Analysis Report did not clearly identify
                                  the cost of network operations. The net present value of the
                                  Postal Service network was a negative $623 million if
                                  anticipated contractor payments were included as savings.
                                  However, if anticipated contractor payments were excluded,
                                  the net present value of the network transition would be a
                                  negative $4.4 billion.

                                  Therefore, we recommended the manager, Capital Program
                                  and Evaluation, include additional language in the Decision
                                  Analysis Report narrative to clarify the financial impact of
                                  the network transition to the Postal Service. Postal Service
                                  management agreed and added narrative information to
                                  clarify the inclusion of contractor payments in the Decision
                                  Analysis Report.




                                                     8
                                          Restricted Information
Transition of the Priority Mail                            MK-AR-01-003
 Processing Center Network




                                             9

                                  Restricted Information
